                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM




          This investigation was initiated based on a referral from NSF program officers who were
          responsible for providing NSF funding to a nationwide research coordination office' located at a
          uni~ersity.~ The NSF program officers heard from various sources that senior management at the
          coordination office had improperly used NSF funds to travel extensively and take vacation time
          without review by university management.

          The university provided account summaries and copies of source documents to OIG involving
          travel and leave records for NSF funded staff. Review of the records showed that the senior staff
          of the coordination office took leave on a regular basis and that travel was documented and
          approved by management. However, some of the records did not adequately address whether
          university management had reviewed and approved the actions of the coordination office because
          some related documents were not provided to OIG with the source documents.

          Several university officials and coordination office employees were interviewed. University
          records related to NSF funds to support the coordination office were also reviewed. We found no
          evidence of fraud and found that the current management structure provided justification for
          expenditures that were reviewed and questioned.

          The university also moved the coordination office from a remote campus to the university main
          campus and elevated the office to a University Center, increasing the oversight and status at the
          university. As a University Center, the coordination office now reports to the ~ssociathDean for
          Research. The university also transferred a grants officer from the Office of Research to provide
          enhanced oversight of the research coordination office. These recent changes have strengthened
          the relationship between the coordination office and university management.

          This matter is closed.




NSt. OlCi Form 2 (1 1/02)
